                   DEPARTMENT OF HEALTH AJ~D HUMAN SERVICES


              OFFICE OF INSPECTOR GENERAL
                                   WAS I-IINGTON, DC 2020 1




                                         APR 10 2013
TO: 	          Margaret A. Hamburg, M.D.
               Commissioner of Food and Drugs
                       /S/
FROM:          Stuart Wright
               Deputy Inspector General
                 for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: High-Risk Compounded Sterile Preparations and
           Outsourcing by Hospitals That Use Them, OEI-01-13-00150


This memorandum report provides information about the extent to which acute-care
hospitals used compounded sterile preparations (CSPs) and purchased them from outside
sources in 2012. It also describes the steps that hospitals take to ensure the quality of
CSPs.

SUMMARY

We surveyed a nationally representative sample of acute-care hospitals that participated
in Medicare in 2012. This survey focused on hospital use of compounded sterile
preparations (CSPs) CSPs are sterile compounded drugs that are generally administered
to patients via injection or infusion. We found that in 2012, 92 percent of hospitals used
CSPs. Of those hospitals that used CSPs, 92 percent used sterile-to-sterile products and
only 25 percent used higher risk nonsterile-to-sterile products. Nonsterile-to-sterile
products composed less than 1 percent ofCSPs used in 2012. Ofthe hospitals that used
nonsterile-to-sterile CSPs, 85 percent outsourced at least some of these products (i.e.,
purchased them from outside pharmacies).

Ensuring an adequate supply of CSPs was very important to hospitals when determining
whether to outsource CSPs. Many hospitals cited shortages of commercial products
(68 percent), the availability of CSPs with extended shelf lives (62 percent), and CSP
stability (69 percent) as very important factors when deciding whether to outsource CSPs.
Also, hospitals took limited steps to ensure the quality of outsourced CSPs but had few
problems with the quality of products from outside pharmacies. Few hospitals (11 of 236
hospitals in our sample) reported problems with product contamination; however, as
shown by the meningitis outbreak in the fall of2012, any instance of product
contamination has the potential for serious consequences. Finally, we found that
56 percent of hospitals made changes or planned to make changes to CSP sourcing
practices in response to that meningitis outbreak.
Page 2 – Margaret A. Hamburg, M.D.


BACKGROUND

A recent nationwide meningitis outbreak caused by contaminated injections, which were
compounded by the New England Compounding Center (NECC), raised major concerns
about the use of compounded drugs supplied by outside pharmacies. 1 The meningitis
outbreak and its aftermath revealed a gap in information about hospitals’ use of drugs
supplied by such pharmacies. Hospitals may have outsourcing arrangements with
multiple outside pharmacies and may also compound drugs within their own pharmacies.
Pharmaceutical compounding is the creation of a prescription drug tailored to meet the
needs of an individual patient. For example, a compounding pharmacist may produce a
version of a drug without an ingredient to which a patient may be allergic, or the
pharmacist might create a liquid form of a drug for a patient who is unable to swallow a
pill. Traditionally, pharmacies compounded a drug upon receipt of a prescription for an
individual patient. However, recent trends in drug compounding have included the
large-scale production of certain drugs to help ease shortages of drugs approved by the
Food and Drug Administration (FDA) and to meet the sourcing needs of some hospitals. 2

Compounded Drugs
There are two broad categories of compounded drugs: nonsterile preparations and sterile
preparations. (In this report, we refer to the latter as compounded sterile preparations, or
CSPs.) Nonsterile preparations, such as ointments applied to the skin or capsules or pills
that a patient takes orally, are lower risk products. Their production is subject to less
stringent standards than those for sterile preparations.
CSPs are higher risk products that are generally administered to patients via injection or
infusion. Preparation of CSPs requires more expertise and more extensive safety
measures. Risks associated with CSP preparation include the use of the wrong medium
or the wrong concentration for mixture, contamination with pathogens, and human error.
CSPs may be divided into two types based on their components and the method of
preparation:

    •   Sterile-to-sterile CSPs are prepared from sterile products, which a pharmacist
        constitutes. Sterile-to-sterile products are considered to carry a high risk of
        contamination in their preparation.
    •   Nonsterile-to-sterile CSPs carry the highest risk of contamination. These
        products are prepared from one or more nonsterile ingredients that must be mixed
        together and then sterilized. The products from NECC that led to the outbreak
        fell into this category. Nonsterile-to-sterile compounding requires extensive
        safety precautions, including specialized staff training, positive and negative flow
        sterile rooms, sterile laminar hoods, and daily cleaning and disinfection.



1
  In this report, the term “outside pharmacy” refers to any outside compounding pharmacy from which a
hospital or medical center purchases compounded drugs.
2
  S. Tavernise, “FDA Chief Seeks Expanded Authority to Improve Safety of Drug Compounders,” The New
York Times, November 14, 2012.


High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
Page 3 – Margaret A. Hamburg, M.D.


Because of CSPs’ greater risk, this study focuses on hospital use of both kinds of CSPs,
rather than the lower risk nonsterile preparations, such as ointments and capsules.
United States Pharmacopoeia
The United States Pharmacopoeia (USP) is an official compendium of drug standards in
the United States. 3 The USP chapter 797 (USP 797) provides product safety and quality
standards for preparing CSPs. 4 Pharmacies have widely adopted USP 797 standards. 5
FDA has limited authority to inspect pharmacies and enforce compliance with current
standards for good manufacturing practices; therefore, it largely defers to the States for
regulating and inspecting pharmacies. 6

METHODOLOGY

We identified 4,867 acute-care hospitals operating in 2012 that participated in Medicare. 7
From this population we selected a simple random sample of 300 hospitals. After we
eliminated 2 ineligible hospitals, the sample consisted of 298 acute-care hospitals. We
developed and used an online questionnaire to determine the extent and nature of hospital
use of CSPs and outsourcing, including the extent to which hospitals outsource versus
prepare onsite, and challenges in outsourcing and preparing CSPs. In January 2013, we
mailed a letter to the director of pharmacy services for each sampled hospital requesting
that he/she complete the online questionnaire. 8 We followed up with each nonrespondent
with a reminder letter and telephone calls. We received responses from 236 hospitals, an
overall response rate of 79 percent.
In addition, we interviewed stakeholders, including four practicing hospital pharmacists
and officials of the trade association that represents hospital pharmacists.
Appendix A contains the sample sizes, point estimates, and 95-percent confidence
intervals for all statistics in this report, as well as other data gathered in the survey.
Limitations
All data in this report are self-reported, and we did not independently verify them.




3
  The Federal Food, Drug, and Cosmetic Act §§ 201(j) and (g)(1)(A) (21 U.S.C. §§ 321(j) and (g)(1)(A))
(defining the terms “official compendium” and “drug”).
4
  The United States Pharmacopeial Convention. “USP-NF General Chapter 797 Pharmaceutical
Compounding—Sterile Preparations.” The United States Pharmacopoeia and the National Formulary,
ch. 797 (copyright 2011).
5
  American Society of Health-System Pharmacists (ASHP), The ASHP Discussion Guide on USP
Chapter 797 for Compounding Sterile Preparations. Accessed at www.ashp.org on December 13, 2012.
6
  FDA, Compliance Policy Guidance for FDA Staff and Industry, Section 460.200 Pharmacy Compounding
(reissued May 29, 2002). Accessed at www.fda.gov on December 13, 2012.
7
  Pursuant to Section 1861 of the Social Security Act, to participate in Medicare, hospitals must
demonstrate that they meet the Medicare Conditions of Participation during onsite inspections conducted
by State survey and certification agencies and hospital accreditors with Medicare deeming authority.
8
  Because of a law enforcement request, we did not contact six acute-care hospitals.


High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
Page 4 – Margaret A. Hamburg, M.D.


Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

In 2012, only one-quarter of hospitals used higher risk nonsterile-to-sterile CSPs,
whereas almost all hospitals used sterile-to-sterile products
Overall, 92 percent of hospitals used CSPs in 2012. Hospitals of all sizes used CSPs and
some used them extensively (Table 1). For example, we interviewed a pharmacy director
of a large teaching hospital who reported that his hospital uses around 2,500 doses of
CSPs per day. Ninety-two percent of hospitals used sterile-to-sterile CSPs. Twenty-five
percent of hospitals used higher risk nonsterile-to-sterile CSPs.

Table 1: Use of Compounded Sterile Preparations by Hospital Size, 2012
                                   Number of Doses of CSPs           Number of Doses of              Number of Doses of
                                   Administered in Hospitals       Nonsterile-to-Sterile CSPs       Sterile-to-Sterile CSPs
 Hospital Size                              Mean                   Administered in Hospitals       Administered in Hospitals
                                   (95% Confidence Interval                   Mean                            Mean
                                             (CI))                          (95% CI)                        (95% CI)
 Fewer Than 50 Beds                                       3,065                              67                           2,947
 (n=81)                                           (1,878–4,252)                        (10–124)                  (1,766–4,127)

 50–99 Beds                                              18,008                                *                         18,001
 (n=40)                                         (6,930–29,086)                                                  (6,925–29,077)

 100–299 Beds                                            45,378                             158                          45,222
 (n=69)                                        (33,803–56,952)                         (43–273)                (33,658–56,785)

 300 Beds and Above                                     206,086                             666                        205,421
 (n=43)                                      (111,647–300,526)                     (310–1,021)              (111,080–299,761)
 Source: Office of Inspector General survey of acute-care hospitals participating in Medicare, 2013.
 *We were unable to project an estimate for this data field because we did not have a valid 95-percent confidence interval.



Nonsterile-to-sterile preparations composed less than 1 percent of CSPs used in hospitals
in 2012. Only 16 percent of hospitals with fewer than 50 beds used these products.
Nonsterile-to-sterile CSPs have a higher risk of contamination than other CSPs because
pharmacists prepare them from nonsterile components that must be sterilized prior to
administration. When we asked hospitals which kinds of nonsterile-to-sterile CSPs they
commonly used, they named both product types and modes of administration. Hospitals
in our sample commonly used nonsterile-to-sterile opioids, steroids, electrolytes, and
diuretics. Hospitals in our sample also reported using nonsterile-to-sterile CSPs for
intrathecal pain pumps and epidurals.

Sterile-to-sterile preparations composed over 99 percent of CSPs used by hospitals in
2012. When asked about commonly used sterile-to-sterile CSPs, hospitals in our sample
reported using antibiotics, opioids, epidurals, oxytocics, total parenteral nutrition, and
cardioplegic solutions.




High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
Page 5 – Margaret A. Hamburg, M.D.


Of the hospitals that used higher risk CSPs in 2012, 85 percent purchased at least
some of these products from outside sources
Of the hospitals that used nonsterile-to-sterile CSPs in 2012, only 36 percent prepared
any of these products onsite (Table 2). USP 797 standards for preparing
nonsterile-to-sterile CSPs are more stringent than those for sterile-to-sterile CSPs, and a
few hospitals in our sample (5 out of 236) reported that they cannot make these products
onsite because their facilities do not meet USP 797 standards. Overall, most hospitals
(75 percent) that used any CSPs used a combination of outsourcing and onsite
preparation to obtain these products.

Table 2: Hospital Sourcing of Compounded Sterile Preparations, 2012
                                                                                                 Percentage of Hospitals
                                   Percentage of Hospitals        Percentage of Hospitals
Product Type                                                                                    That Both Outsourced And
                                      That Outsourced              That Prepared Onsite
                                                                                                     Prepared Onsite
All CSPs
                                                       79.4%                          95.0%                        74.7%
(n=218 Hospitals That Used                    (74.1%−84.6%)                  (92.1%−97.8%)                  (69.2%−80.4%)
CSPs)
Nonsterile-to-Sterile CSPs
                                                       84.7%                          35.6%                        20.3%
(n=59 Hospitals That Used
Nonsterile-to-Sterile CSPs)                   (75.8%−93.7%)                  (23.7%−47.5%)                  (10.3%−30.3%)

Sterile-to-Sterile CSPs
                                                       76.9%                          95.4%                        72.2%
(n=216 Hospitals That Used
Sterile-to-Sterile CSPs)                      (71.4%−82.3%)                  (92.6%−98.1%)                  (66.4%−78.0%)

Source: Office of Inspector General (OIG) survey of acute-care hospitals participating in Medicare, 2013.


Of the hospitals that purchased nonsterile-to-sterile CSPs from outside pharmacies,
63 percent contracted with one pharmacy, 20 percent contracted with two, and 16 percent
with three (see Table A4 in Appendix A). 9 Most hospitals (67 percent) that purchased
nonsterile-to-sterile CSPs from outside pharmacies used at least one pharmacy located in
another State. 10

For those hospitals that used sterile-to-sterile CSPs, 77 percent purchased sterile-to-sterile
products from at least one outside pharmacy. Of these hospitals that purchased
sterile-to-sterile CSPs from outside pharmacies, 41 percent contracted with one outside
pharmacy, 50 percent contracted with two or three pharmacies, and 9 percent contracted
with four or five pharmacies (see Table A5 in Appendix A). As with nonsterile-to-sterile
products, most of these hospitals purchased sterile-to-sterile CSPs from at least one
out-of-State pharmacy: 45 percent used one out-of-State pharmacy, 41 percent used two
or three out-of-State pharmacies, and 3 percent used four or five out-of-State pharmacies.




9
  The 95-percent confidence intervals for these three percentage estimates are 50.1 to 76.4 percent, 9.4 to
31.4 percent, and 6.2 to 26.4 percent, respectively.
10
   The 95-percent confidence interval for the 67-percent estimate is 54.6 to 80.1 percent.


High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
Page 6 – Margaret A. Hamburg, M.D.


Hospitals consider factors related to ensuring an adequate supply of CSPs as very
important when determining whether to outsource CSPs
Hospitals cited shortages of commercial products as a very important factor when
deciding whether to outsource CSPs (see Table A6 in Appendix A). Outsourcing CSPs
may be necessary to ensure the ready availability of products during such shortages. A
few hospitals in our sample (15 of 236) indicated that they outsource CSPs only when
commercial products are unavailable because of a shortage and the cost of producing the
CSP onsite would be prohibitive. One pharmacy director stated that his hospital had
outsourced more CSPs in 2012 than in previous years because of growing shortages of
commercially available products.

When asked how an abrupt shortage of CSPs from outside pharmacies would affect
delivery of care and risk to patients, 48 percent of hospitals stated that a shortage of
outsourced CSPs would have a non-life-threatening but great impact on delivery of care
in their hospitals (see Table A8 in Appendix A). An additional 11 percent responded that
such a shortage would cause life-threatening, major disruptions.

Hospitals also regarded CSP stability11 and the need for CSPs with extended shelf lives as
very important factors when deciding whether to outsource CSPs. A pharmacy’s ability
to provide products with extended shelf lives was also important to hospitals when
selecting a particular outside pharmacy (see Table A7 in Appendix A). This suggests that
hospitals rely on outsourcing to provide commonly used products for which the exact
demand may be unpredictable. According to pharmacists with whom we spoke, CSPs
prepared onsite often have limited shelf lives or must be refrigerated. In many cases,
outside pharmacies can provide products that have undergone stability testing and have
extended shelf lives. Outsourcing these CSPs enables hospitals to have product on hand
when needed with less waste. A few hospitals in our sample (6 out of 236) noted that the
option of outsourcing CSPs with extended shelf lives is particularly important because
they do not have pharmacies that operate 24 hours a day.

In deciding to outsource, hospitals considered other factors as important in ensuring a
supply of CSPs. Hospitals cited the ability to prepare CSPs onsite, such as lack of
necessary equipment, shortage of trained staff, and lack of physical facilities to prepare
CSPs as important when deciding whether to outsource CSPs (see Table A6 in Appendix
A). In fact, only 56 percent of hospitals had a USP 797-compliant clean room for
preparing CSPs. When deciding whether to outsource, hospitals also considered whether
CSPs were high risk or required nonsterile-to-sterile preparation.

Hospitals took limited steps to ensure the quality of outsourced CSPs, but they also
rarely had problems with CSP quality
Most hospitals that outsourced CSPs required that outside pharmacies comply with
USP 797 (83 percent) and reviewed quality reports provided by outside pharmacies
(71 percent, Table 3). Of the hospitals that outsourced CSPs, few conducted their own
site visits at outside pharmacies (22 percent) or reviewed independent quality

11
  The term “CSP stability” refers to the extent to which the preparation retains the same properties and
characteristics that it possessed at the time of its preparation throughout its period of storage and use.


High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
Page 7 – Margaret A. Hamburg, M.D.


assessments of the outside pharmacies used (27 percent). Some hospitals in our sample
(14 out of 236) also reported that they lacked the resources, access, or expertise to assess
the quality of outside pharmacies and therefore must rely on State Boards of Pharmacy to
assess them.
Table 3: Steps That Hospitals That Outsourced Compounded Sterile Preparations Took To
Ensure Quality in 2012
                                                                       Percentage of Hospitals That Reported
Quality Step                                                         Taking Quality Step for Some or All Outside
                                                                         Pharmacies They Contracted With
Required Compliance With USP 797                                                                            83%

Reviewed Quality Reports Provided by the Outside Pharmacy                                                   71%

Reviewed Quality Reports Provided by a Third Party                                                          27%

Conducted Onsite Visits at the Outside Pharmacy                                                             22%

Tested CSPs Provided by Outside Pharmacy                                                                     9%
Source: OIG survey of acute-care hospitals participating in Medicare, 2013.


Although hospitals took limited steps to ensure the quality of outsourced CSPs,
42 percent of hospitals were very confident that the steps taken were adequate. An
additional 47 percent were only somewhat confident that these steps were adequate.
However, 12 percent of hospitals were not at all confident in the quality of products from
outside pharmacies. 12 Most hospitals (64 percent) that outsourced CSPs had no problems
or concerns with outside pharmacies in 2012, and of those that had problems, many were
related to product availability (73 percent). 13 Few hospitals (11 of 236 hospitals) in our
sample reported problems with product contamination; however, as shown by the
meningitis outbreak in fall 2012, any instance of product contamination has the potential
for serious consequences.

Half of all hospitals made changes or planned to make changes to CSP sourcing
practices in response to the fall 2012 meningitis outbreak
Overall, 56 percent of hospitals made changes to CSP sourcing practices in 2012 or plan
to make changes in 2013. This includes hospitals that use only sterile-to-sterile products
and hospitals that use higher risk nonsterile-to-sterile products. Some changes were
related to the way in which hospitals outsource CSPs (see Table A14 in Appendix A).
Outsourcing changes that hospitals made or plan to make included decreasing CSP
outsourcing, requesting more information on product quality from outside pharmacies,
and contracting with different outside pharmacies.

Hospitals also made or planned changes to the way they prepare CSPs in-house. Many
hospitals increased or plan to increase quality control mechanisms in the hospital
pharmacies and hospital capacity to prepare CSPs in-house. Making such changes while
complying with USP 797 may be resource intensive for hospitals. About half of hospitals
ranked cost (47 percent) and space limitations (49 percent) as major challenges to

12
   Percentages for hospital confidence in the quality of CSPs purchased from outside sources add up to
101 percent because of rounding. See Table A10 in Appendix A for exact percentages.
13
   The 95-percent confidence interval for the 73-percent estimate is 61.8 to 83.4 percent.


High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
Page 8 – Margaret A. Hamburg, M.D.


USP 797 compliance. A few hospitals in our sample (6 out of 236) reported that
becoming fully compliant with USP 797 would require a building redesign or new
construction.

CONCLUSION

Our review shows that the use of compounded sterile products is widespread in hospitals,
although the use of the highest risk products—those involving preparation of sterile
products from nonsterile components—is limited to about one-quarter of hospitals, most
commonly larger facilities.

Although most hospital pharmacies prepared sterile-to-sterile products onsite, hospitals
outsource most nonsterile-to-sterile CSPs. Hospitals tend to rely upon a limited number
of external pharmacies for these CSPs, especially for nonsterile-to-sterile products. Often
these pharmacies are located in other States.

Many factors go into a hospital pharmacy’s decision to outsource CSPs. Among these
are the need to ensure a ready supply of products in the event of shortages and the need
for products with extended shelf lives, which require sophisticated equipment and testing
that may not be readily available on the hospital premises.

The meningitis outbreak in the fall of 2012 has spurred hospital pharmacies to make
some changes, such as seeking additional information from outside pharmacies about
quality practices, or even expanding their own internal compounding capacity. For the
most part, hospitals remain confident about the quality of outsourced CSPs.
Nevertheless, the meningitis outbreak raises questions about whether this confidence is
well placed and emphasizes the need to stay vigilant about procedures for compounding
and outsourcing CSPs.

OIG will pursue additional work to further examine the safety and quality of
pharmaceutical compounding in hospitals, including work examining Federal oversight
mechanisms.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-01-13-00150 in all correspondence.




High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
Page 9 – Margaret A. Hamburg, M.D.


APPENDIX A

Complete Results From Office of Inspector General Survey of Acute-Care Hospitals
That Participated in Medicare in 2012

Table of Contents
       Table A1: Hospital Demographic Information, 2012 ...........................................10
        Table A2: Use of Compounded Sterile Preparations by Hospital Size, 2012 .......10
        Table A3: Total Doses of Compounded Sterile Preparations Used in 2012 ......... 11
        Table A4: Use of Outside Pharmacies by Hospitals Outsourcing
           Nonsterile-to-Sterile Compounded Sterile Preparations in 2012...................... 11
        Table A5: Use of Outside Pharmacies by Hospitals Outsourcing
           Sterile-to-Sterile Compounded Sterile Preparations in 2012 ............................12
        Table A6: Factors Important to Hospitals When Deciding Whether
          To Outsource Compounded Sterile Preparations ..............................................13
        Table A7: Factors Important to Hospitals When Selecting a Particular
           Outside Pharmacy .............................................................................................14
        Table A8: Hospital Beliefs About the Effect of an Abrupt Shortage or Loss of
           Supply of Compounded Sterile Preparations From Outside Pharmacies
           on Risk to Patients and Delivery of Care in the Hospital .................................14
        Table A9: Steps That Hospitals Outsourcing Compounded Sterile
           Preparations Took To Ensure Quality
           in 2012 ..............................................................................................................15
        Table A10: Hospital Confidence in Steps Taken To Ensure Quality of
           Compounded Sterile Preparations Purchased From Outside Pharmacies
           in 2012 ..............................................................................................................15
        Table A11: Hospitals That Outsourced Compounded Sterile Preparations and
           Had Problems or Concerns With Outside Pharmacies in 2012.........................16
        Table A12: Hospital AbilityTo Prepare Compounded Sterile Preparations
           Onsite, 2012 ......................................................................................................16
        Table A13: Hospital-Identified Challenges To Meeting Compliance
          With USP 797 Standards ...................................................................................17
        Table A14: Hospitals That Have Made or Plan To Make Changes to
           Sourcing Practices for Compounded Sterile Preparations in Response to the
           Fall 2012 Meningitis Outbreak .........................................................................18




High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
 Page 10 – Margaret A. Hamburg, M.D.

Table A1: Hospital Demographic Information, 2012

                                                                                     Percentage of Hospitals
                                                           Sample Size
                                                                                  (95% Confidence Interval (CI))

 Hospital Size                                                           233

                                                                                                             34.8%
    Fewer Than 50 Beds
                                                                                                     (28.8%−40.7%)
                                                                                                             17.2%
    50–99 Beds
                                                                                                     (12.5%−21.9%)
                                                                                                             29.6%
    100–299 Beds
                                                                                                     (23.9%−35.3%)
                                                                                                             18.5%
    300 Beds and Above
                                                                                                     (13.6%−23.3%)
                                                                                                             91.5%
 Operating Room in Hospital                                              235
                                                                                                     (88.0%−95.0%)
                                                                                                             72.6%
 Intensive Care Unit in Hospital                                         234
                                                                                                     (67.1%−78.2%)
                                                                                                             47.7%
 Dialysis Performed at Hospital                                          235
                                                                                                     (41.4%−53.9%)
 Source: Office of Inspector General (OIG) survey of acute-care hospitals participating in Medicare, 2013.




 Table A2: Use of Compounded Sterile Preparations by Hospital Size, 2012
                                                            Hospitals That Used
                                                                                             Hospitals That Used       Hospitals That Used
                                                            Compounded Sterile
                                                                                             Nonsterile-to-Sterile    Sterile-to-Sterile CSPs
                                                            Preparations (CSPs)
                                                                                                    CSPs
                                    Sample Size
                                                                                                  Percentage               Percentage
                                                                  Percentage
                                                                                                   (95% CI)                 (95% CI)
                                                                   (95% CI)

 All Hospitals                                                                  92.4%                        25.1%*                     91.5%
                                                  236
                                                                      (89.1%−95.7%)                   (19.7%−30.5%)           (88.1%−95.0%)

 Hospitals by Size


    Fewer Than 50 Beds                                                          81.5%                        16.0%                      79.0%
                                                   81
                                                                      (73.2%−89.7%)                    (8.8%−25.9%)           (68.5%−87.3%)

    50−99 Beds                                                                  95.0%                          5.0%                     95.0%
                                                   40
                                                                    (88.4%−100.0%)                     (0.6%−16.9%)           (83.1%−99.4%)

    100−299 Beds                                                                98.6%                        25.0%                      98.6%
                                                   69
                                                                    (95.8%−100.0%)                    (15.3%−37.0%)          (92.2%−100.0%)

    300 Beds and Above                                                         100.0%                        60.5%                    100.0%
                                                   43
                                                                    (91.8%−100.0%)                    (46.2%−74.7%)          (91.8%−100.0%)
 Source: OIG survey of acute-care hospitals participating in Medicare, 2013.
 *The sample size for this estimate is 235.




 High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
Page 11 – Margaret A. Hamburg, M.D.

Table A3: Total Doses of Compounded Sterile Preparations
Used in 2012

                                                             Percentage of Total CSPs

                                                                        (95% CI)

Total Doses of CSPs (n=236)

                                                                                     0.34%
   Nonsterile-to-Sterile CSPs (n=235)
                                                                                (0.2%−0.5%)
                                                                                     99.6%
   Sterile-to-Sterile CSPs (n=236)
                                                                              (99.5%−99.8%)
Source: OIG survey of acute-care hospitals participating in Medicare, 2013.




Table A4: Use of Outside Pharmacies by Hospitals Outsourcing
Nonsterile-to-Sterile Compounded Sterile Preparations in 2012
                                                                     Hospitals That Outsourced Nonsterile-to-Sterile CSPs
Number of Outside Pharmacies Used                 Sample Size
                                                                                              Percentage
                                                                                               (95% CI)
All Outside Pharmacies                                        49


   1                                                                                                               63.3%
                                                                                                           (50.1%−76.4%)

   2                                                                                                               20.4%
                                                                                                            (9.4%−31.4%)

   3                                                                                                               16.3%
                                                                                                            (6.2%−26.4%)

Out-of-State Pharmacies                                       49


   0                                                                                                               32.7%
                                                                                                           (19.9%−45.4%)

   1                                                                                                               51.0%
                                                                                                           (37.4%−64.7%)

   2                                                                                                               14.3%
                                                                                                            (5.9%−27.2%)

   3                                                                                                                2.0%
                                                                                                            (0.1%−10.9%)
Source: OIG survey of acute-care hospitals participating in Medicare, 2013.




High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
Page 12 – Margaret A. Hamburg, M.D.


Table A5: Use of Outside Pharmacies by Hospitals Outsourcing
Sterile-to-Sterile Compounded Sterile Preparations in 2012
                                                                       Hospitals That Outsourced Sterile-to-Sterile CSPs
Number of Outside Pharmacies Used                 Sample Size
                                                                                         Percentage
                                                                                          (95% CI)
All Outside Pharmacies                                       165


   1                                                                                                               40.6%
                                                                                                           (33.3%−47.9%)

   2                                                                                                               36.4%
                                                                                                           (29.2%−43.5%)

   3                                                                                                               13.9%
                                                                                                            (8.8%−19.1%)

   4                                                                                                                 6.7%
                                                                                                            (3.0%−10.4%)

   5                                                                                                                 2.4%
                                                                                                             (0.1%−4.7%)

Out-of-State Pharmacies                                      163


   0                                                                                                               11.0%
                                                                                                            (6.4%−15.7%)

   1                                                                                                               44.8%
                                                                                                           (37.3%−52.2%)

   2                                                                                                               33.1%
                                                                                                           (26.1%−40.2%)

   3                                                                                                                 8.0%
                                                                                                            (3.9%−12.0%)

   4                                                                                                                 1.8%
                                                                                                             (0.4%−5.3%)

   5                                                                                                                 1.2%
                                                                                                             (0.1%−4.4%)
Source: OIG survey of acute-care hospitals participating in Medicare, 2013.




High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
 Page 13 – Margaret A. Hamburg, M.D.

Table A6: Factors Important to Hospitals When Deciding Whether To Outsource
Compounded Sterile Preparations
                                                                               Very Important    Somewhat        Not Important
                                                                                                 Important
                                                            Sample
 Factor
                                                             Size
                                                                                Percentage       Percentage       Percentage
                                                                                 (95% CI)         (95% CI)         (95% CI)
                                                                                         68.6%           19.9%            11.5%
 Stability of CSP                                                  226           (62.7%−74.5%)   (14.8%−25.0%)     (7.5%−15.6%)

                                                                                         68.1%           22.7%             9.2%
 Shortages of Commercial Products                                  229           (62.2%−74.0%)   (17.4%−28.0%)     (5.5%−12.8%)

                                                                                         67.0%           20.7%            12.3%
 Need for Ready-to-Administer Form of CSP                          227           (61.0%−72.9%)   (15.6%−25.8%)     (8.2%−16.5%)

                                                                                         61.9%           23.5%            14.6%
 Need for Product With Extended Shelf Life                         226           (55.8%−68.1%)   (18.1%−28.8%)    (10.1%−19.1%)

                                                                                         61.4%           23.2%            15.4%
 Product-Testing Requirements                                      228           (55.2%−67.6%)   (17.9%−28.6%)    (10.8%−19.9%)

 Product Is High Risk or Problem Prone To                                                53.7%           27.5%            18.8%
 Prepare                                                           229           (47.4%−60.0%)   (21.9%−33.1%)    (13.8%−23.7%)

 Inability of Hospital Pharmacy To Produce                                               46.9%           27.2%            25.9%
 CSPs in Quantity Needed                                           228           (40.6%−53.2%)   (21.6%−32.8%)    (20.3%−31.4%)

 CSP Requires Nonsterile-to-Sterile                                                      47.1%           18.1%            34.8%
 Preparation                                                       227           (40.8%−53.5%)   (13.2%−22.9%)    (28.8%−40.8%)

                                                                                         45.6%           30.7%            23.7%
 Need for Specialized Products                                     228           (39.3%−51.9%)   (24.9%−36.5%)    (18.3%−29.1%)

 Lack of Necessary Equipment To Prepare                                                  38.9%           23.6%            37.6%
 CSP in-House                                                      229           (32.7%−45.0%)   (18.2%−28.9%)    (31.4%−43.7%)

 Amount of Time Needed To Produce CSP                                                    39.3%           36.7%            24.0%
 in-House                                                          229           (33.1%−45.5%)   (30.6%−42.8%)    (18.6%−29.4%)

                                                                                         35.4%           45.0%            19.7%
 Predictability of Demand for CSP                                  229           (29.3%−41.4%)   (38.7%−51.3%)    (14.6%−24.7%)

 Lack of Physical Facilities To Prepare CSP                                              34.8%           26.9%            38.3%
 in-House                                                          227           (28.8%−40.8%)   (21.3%−32.5%)    (32.2%−44.5%)

                                                                                         33.6%           38.4%            27.9%
 Workflow Management                                               229           (27.7%−39.6%)   (32.3%−44.6%)    (22.3%−33.6%)

                                                                                         27.8%           22.0%            50.2%
 Prior Problems With Outsourced CSPs                               223           (22.1%−33.5%)   (16.7%−27.3%)    (43.8%−56.6%)

                                                                                         27.5%           49.8%            22.7%
 Cost of Producing Product in-House                                229           (21.9%−33.1%)   (43.5%−56.1%)    (17.4%−28.0%)

                                                                                         26.8%           33.8%            39.5%
 Shortage of Staff Trained to Prepare CSP                          228           (21.2%−32.4%)   (27.8%−39.8%)    (33.3%−45.7%)

                                                                                         20.0%           21.8%            58.2%
 Prior Problems Preparing CSP in-House                             225           (14.9%−25.1%)   (16.5%−27.0%)     (51.9%−64.5%
 Source: OIG survey of acute-care hospitals participating in Medicare, 2013.




 High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
 Page 14 – Margaret A. Hamburg, M.D.

Table A7: Factors Important to Hospitals When Selecting a Particular Outside Pharmacy
                                                                                                        Somewhat
                                                                               Very Important                            Not Important
                                                                                                        Important
                                                            Sample
 Factor
                                                             Size               Percentage                                Percentage
                                                                                                       Percentage
                                                                                 (95% CI)                                  (95% CI)
                                                                                                        (95% CI)
                                                                                         88.6%                   3.1%              8.3%
 Quality of Product                                                228           (84.6%−92.6%)             (0.9%−5.3%)       (4.8%−11.8)
                                                                                         87.3%                   5.3%              7.5%
 Pharmacy Expertise in Preparing Product                           228           (83.1%−91.5%)             (2.4%−8.1%)     (4.1%−10.8%)
                                                                                        83.8 %                   9.6%              6.6%
 Pharmacy Reputation                                               229           (79.2%−88.5%)           (5.9%−13.3%)       (3.4%−9.7%)
                                                                                         79.0%                  13.5%              7.4%
 Pharmacy Accreditation                                            229           (73.9%−84.2%)           (9.2%−17.9%)      (4.1%−10.7%)

 Inspection History With State Board of                                                  77.5%                  13.2%              9.3%
 Pharmacy                                                          227           (72.2%−82.8%)           (8.9%−17.5%)      (5.6%−12.9%)
                                                                                         75.5%                  17.0%              7.4%
 Product Availability                                              229           (70.1%−81.0%)          (12.3%−21.8%)      (4.1%−10.7%)

 Pharmacy’s Ability To Provide Products With                                             71.1%                  18.9%             10.1%
 Extended Shelf Life                                               228           (65.3%−76.8%)          (13.9%−23.8%)      (6.3%−13.9%)
                                                                                         66.7%                  25.0%              8.3%
 Pharmacy Responsiveness                                           228           (60.7%−72.6%)          (19.5%−30.5%)      (4.8%−11.8%)
                                                                                         50.7%                  37.6%             11.8%
 Pharmacy’s Delivery Schedule                                      229           (44.3%−57.0%)          (31.4%−43.7%)      (7.7%−15.9%)
                                                                                         37.4%                  48.5%             14.1%
 Product Cost                                                      227           (31.3%−43.6%)          (42.1%−54.8%)      (9.7%−18.5%)
                                                                                         23.5%                  39.8%             36.7%
 Hospital’s Own Site Inspection of Pharmacy                        226           (18.1%−28.8%)          (33.6%−46.0%)     (30.6%−42.8%)
                                                                                          3.5%                  31.1%             65.4%
 Medical Staff Preference                                          228             (1.2%−5.8%)          (25.3%−37.0%)     (59.3%−71.4%)
 Source: OIG survey of acute-care hospitals participating in Medicare, 2013.




 Table A8: Hospital Beliefs About the Effect of an Abrupt Shortage or Loss
 of Supply of Compounded Sterile Preparations From Outside Pharmacies
 on Risk to Patients and Delivery of Care in the Hospital (n=235)

                                                                                 Percentage of Hospitals
 Perceived Level of Risk to Patients and Disruption of Care
                                                                                        (95% CI)

                                                                                                       11.5%
 Life-Threatening, Major Disruptions
                                                                                                 (7.5%−15.5%)
                                                                                                       48.1%
 Not Life-Threatening, But Still Great Impact
                                                                                                (41.9%−54.3%)
                                                                                                       16.6%
 Little Impact, an Inconvenience
                                                                                                (12.0%−21.2%)
                                                                                                       23.8%
 No Impact at All
                                                                                                (18.5%−29.1%)
 Source: OIG survey of acute-care hospitals participating in Medicare, 2013.




 High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
Page 15 – Margaret A. Hamburg, M.D.

Table A9: Steps That Hospitals Outsourcing Compounded Sterile Preparations
To Ensure Quality in 2012
                                                    Performed                   Performed          Did Not Perform   Not Applicable
                                                  Quality Step for            Quality Step for       Quality Step
                                                   All Outside                Some Outside
                                    Sample
Quality Step                                       Pharmacies                  Pharmacies
                                     Size
                                                     Percentage                 Percentage           Percentage       Percentage
                                                      (95% CI)                   (95% CI)             (95% CI)         (95% CI)
Required Compliance With                                       76.7%                     6.4%                14.0%             2.9%
                                          172
USP 797                                              (70.6%−82.9%)               (2.8%−10.0%)         (8.9%−19.0%)      (0.5%−5.4%)

Reviewed Quality Reports
                                          171                  48.5%                    22.8%                26.3%             2.3%
Provided by Outside
Pharmacy                                            (41.2%−-55.8%)             (16.7%−28.9%)         (19.9%−32.7%)      (0.1%−4.5%)

Reviewed Quality Reports                                       16.5%                    10.0%                67.6%             5.9%
                                          170
Provided by Third Party
                                                     (11.0%−21.9%)               (5.6%−14.4%)        (60.8%−74.5%)      (2.4%−9.3%)
Conducted Onsite Visits at                                      7.0%                    15.1%                72.7%             5.2%
                                          172
Outside Pharmacy
                                                      (3.3%−10.7%)               (9.9%−20.3%)        (66.2%−79.2%)      (2.0%−8.5%)
Tested CSPs Provided by                                         5.8%                     3.5%                86.0%             4.7%
                                          171
Outside Pharmacy
                                                       (2.4%−-9.3%)               (0.8%−6.2%)        (80.9%−91.0%)      (1.6%-7.8%)
Source: OIG survey of acute-care hospitals participating in Medicare, 2013.




Table A10: Hospital Confidence in Steps Taken To Ensure
Quality of Compounded Sterile Preparations Purchased From
Outside Pharmacies in 2012 (n=221)

                                                             Percentage of Hospitals
Level of Confidence
                                                                       (95% CI)

                                                                                           41.6%
Very Confident
                                                                                  (35.3%−48.0%)
                                                                                           46.6%
Somewhat Confident
                                                                                  (40.2%−53.0%)
                                                                                           11.8%
Not at All Confident
                                                                                   (7.6%−15.9%)
Source: OIG survey of acute-care hospitals participating in Medicare, 2013.




High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
 Page 16 – Margaret A. Hamburg, M.D.

Table A11: Hospitals That Outsourced Compounded Sterile Preparations and Had Problems
or Concerns With Outside Pharmacies in 2012
                                                          Sample Size                Had Problem or            Did Not Have
                                                                                        Concern             Problem or Concern
 Problems or Concerns
                                                                                       Percentage              Percentage
                                                                                        (95% CI)                (95% CI)
 Any Problem or Concern With Outside                                                                35.7%                64.3%
                                                                        171
 Compounding Pharmacies                                                                   (28.7%−42.7%)          (57.3%−71.3%)
                                                                                                    72.6%                27.4%
    Lack of Product Availability                                         62
                                                                                          (61.8%−83.4%)          (16.6%−38.2%)
                                                                                                    42.6%                57.4%
    Problems With Product Delivery                                       61
                                                                                          (30.5%−54.7%)          (45.3%−69.5%)
                                                                                                    18.0%                82.0%
    Product Contamination                                                61
                                                                                           (8.6%−27.4%)          (72.6%−91.4%)
                                                                                                    8.2%                 91.8%
    Problems With Product Potency                                        61
                                                                                           (1.5%−14.9%)          (85.1%−98.5%)
 Source: OIG survey of acute-care hospitals participating in Medicare, 2013.




Table A12: Hospital Ability to Prepare Compounded Sterile Preparations
Onsite, 2012

                                                                               Percentage of Hospitals
                                                        Sample Size
                                                                                      (95% CI)

 Hospitals With a USP 797-Compliant Clean                                                        56.2%
                                                                     235
 Room                                                                                   (50.0%−62.4%)

 Hospitals With a Barrier Isolator for                                                           54.2%
                                                                     236
 Preparing CSPs                                                                         (48.0%−60.4%)
 Hospital Compliance With USP 797
 Requirements for Risk Level of CSPs                                 228
 Prepared Onsite
                                                                                                 59.6%
    Fully Compliant
                                                                                       (53.4% −65.9%)
                                                                                                 29.8%
    Mostly Compliant
                                                                                       (24.0% −35.6%)
                                                                                                 6.1%
    Somewhat Compliant
                                                                                          (3.1%−9.2%)
                                                                                                 4.4%
    Not at All Compliant
                                                                                          (1.8% −7.0%)
 Source: OIG survey of acute-care hospitals participating in Medicare, 2013.




 High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
             Page 17 – Margaret A. Hamburg, M.D.



Table A13: Hospital-Identified Challenges To Meeting Compliance With USP 797 Standards
                                                                Major Challenge        Minor Challenge     Not a Challenge
                                        Sample Size
                                                                   Percentage            Percentage          Percentage
                                                                    (95% CI)              (95% CI)            (95% CI)
                                                                               49.1%               27.0%               23.9%
 Space Limitations                                  226
                                                                      (42.8%−55.5%)        (21.4%−32.6%)       (18.5%−29.3%)
                                                                               47.4%               30.3%               22.4%
 Cost                                               228
                                                                      (41.1%−53.7%)        (24.5%−36.1%)       (17.1%−27.6%)
                                                                               25.4%               35.5%               39.0%
 Access to Needed Equipment                         228
                                                                      (19.9%−30.9%)        (29.5%−41.6%)       (32.9%−45.2%)
                                                                               22.4%               43.4%               34.2%
 Number of Staff                                    228
                                                                      (17.1%−27.6%)        (37.2%−49.7%)       (28.2%−40.2%)
                                                                               11.0%               45.6%               43.4%
 Staff Skill Set                                    228
                                                                        (7.0%−14.9%)       (39.3%−51.9%)       (37.2%−49.7%)

 Source: OIG survey of acute-care hospitals participating in Medicare, 2013.




             High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
         Page 18 – Margaret A. Hamburg, M.D.


Table A14: Hospitals That Have Made or Plan To Make Changes to Sourcing Practices
for Compounded Sterile Preparations in Response to the Fall 2012 Meningitis Outbreak
                                                                            Percentage of Hospitals
                                                              Sample Size
                                                                                   (95% CI)

Hospitals That Either Changed or Plan To Change CSP                                           56.0%
                                                                      232
Sourcing Practices                                                                    (49.8%−62.3%)

                                                                                              45.9%
Hospitals That Changed CSP Sourcing Practices in 2012                 233
                                                                                      (39.7%−52.2%)

Changes Made

                                                                                              78.3%
  Decreased Outsourcing of CSPs                                       106
                                                                                     (70.7% −85.9%)

  Requested More Information From Outside Compounding                                         61.9%
                                                                      105
  Pharmacies on Product Quality                                                       (52.9%−71.0%)
                                                                                              54.8%
  Increased Quality Control Mechanisms in Hospital Pharmacy           104
                                                                                     (45.5% −64.1%)
                                                                                              51.9%
  Increased Hospital Capacity To Prepare CSPs Onsite                  106
                                                                                      (42.6%−61.2%)
                                                                                              50.5%
  Contracted With Different Outside Pharmacy                          105
                                                                                      (41.2%−59.8%)

Hospitals That Plan To Change CSP Sourcing Practices in                                       38.5%
                                                                      234
2013                                                                                  (32.4%−44.5%)

Planned Changes

  Request More Information From Outside Compounding                                           84.1%
                                                                       88
  Pharmacies on Product Quality                                                       (76.6%−91.5%)
                                                                                              74.7%
  Increase Quality Control Mechanisms in Hospital Pharmacy             87
                                                                                      (65.8%−83.6%)
                                                                                              56.8%
  Decrease Outsourcing of CSPs                                         88
                                                                                      (46.7%−66.9%)
                                                                                              54.5%
  Increase Hospital Capacity To Prepare CSPs Onsite                    88
                                                                                      (44.4%−64.7%)
                                                                                              51.7%
  Contract With Different Outside Pharmacy                             89
                                                                                      (41.6%−61.8%)




         High-Risk Compounded Sterile Preparations and Hospital Outsourcing (OEI-01-13-00150)
